              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                              APR 1 5 2014
Memorandum

To:            Secretary Jewell

From:          Mary L. Kendall
               Deputy Inspector Gener

Subject:       Memorandum- U.S. Department of the Interior's Compliance With the Improper
               Payments Elimination and Recovery Act of 201 0 in the Fiscal Year 2013
               "Agency Financial Report"
               Report No. X-EV-OSS-0004-2014

        This memorandum transmits the results of our review of the "Summary of Improper
Payments" section in the U.S. Department of the Interior's (DOl) fiscal year (FY) 2013 "Agency
Financial Report" (APR) to determine whether DOl met the requirements of the Improper
Payments Elimination and Recovery Act of2010 (IPERA) and the Improper Payments
Information Act of2002 (IPIA). In addition, we evaluated DOl's accuracy and completeness of
reporting improper payments and its performance in reducing and recapturing improper
payments.

        We conducted our inspection in accordance with the Quality Standards for Inspection and
Evaluation as put forth by the Council of the Inspectors General on Integrity and Efficiency. We
believe that the work performed provides a reasonable basis for our conclusions.

Background

       IPERA, which became law on July 22, 2010, amended IPIA to prevent the loss of
taxpayer dollars through improper payments. The Office of Management and Budget (OMB)
issued Govemmentwide guidance on the implementation of IPERA in April 2011.

         IPERA requires the head of each agency to follow guidance provided by the OMB
director to periodically review and identify all programs and activities that may be susceptible to
significant improper payments. IPERA defines significant improper payments as more than
$10 million of all program or activity payments made during the fiscal year reported and
1.5 percent of total program outlays, or more than $100 million in improper payments. For each
program and activity identified, the agency must produce a statistically valid estimate or an
OMB-approved estimate of the improper payments and include the estimates in the
accompanying materials to the annual financial statements of the agency. The agency then
prepares a report on the actions it has taken to reduce improper payments for programs or
activities with significant improper payments. The report must describe the causes of the
improper payments and include a corrective action plan.



                               Office of Inspector General I Washington, DC
       An agency must report on the actions it took to recover improper payments identified in
recovery audits required by IPERA. The reports should include-

       •   a discussion of the methods used to recover overpayments;
       •   the amounts recovered, amounts outstanding, and amounts determined not
           collectable, including the percentage of these amounts that represent the agency's
           total overpayments;
       •   a justification for determining why certain overpayments are not collectable;
       •   an aging schedule of the amounts outstanding;
       •   a summary of how the agency uses recovered amounts; and
       •   a discussion of any conditions causing improper payments and how those conditions
           are being resolved.

        The agency must also provide a justification if it has determined that it was not cost
effective to perform a recovery audit for any program or activity.

Responsibilities of the Agency's Inspector General

       OMB guidance specifies that each agency's Inspector General should review the
agency's improper payment reporting in its annual "Performance and Accountability Report"
(PAR) or AFR and accompanying materials to determine whether the agency complied with
IPERA.

       According to OMB guidance, compliance with IPERA means that the agency has-

       •   published a PAR or AFR for the most recent fiscal year and posted that report and
           any accompanying materials required by OMB on the agency's website;
       •   conducted a specific risk assessment for each program or activity in FY 2013 that
           conforms with 31 U.S.C. § 3321 (if required) or obtain a waiver from OMB;
       •   published improper payment estimates for all programs and activities identified as
           susceptible to significant improper payments under its risk assessment (if required);
       •   published programmatic corrective action plans in the PAR or AFR (if required);
       •   published and met annual reduction targets for each program assessed to be at risk
           and measured for improper payments;
       •   reported a gross improper payment rate of less than 10 percent for each program and
           activity for which an improper payment estimate was obtained and published in the
           PAR or AFR; and
       •   reported information on its efforts to recapture improper payments.

       If the Inspector General determines that an agency did not comply with all of these
requirements, the agency did not comply with IPERA. The agency's Inspector General should
also evaluate the agency's accuracy and completeness of reporting improper payments and its
performance in reducing and recapturing improper payments.




                                                                                                   2
Results of Review

         We found that, as required by IPERA, DOl published an AFR for FY 2013 and posted
that report on its website. Based on the results of its FY 2012 risk assessments and in accordance
with OMB guidance, DOl placed its programs on a 3-year risk assessment cycle, with the next
cycle due in FY 2015. In FY 2013, however, DOl received $786.7 million to support Hurricane
Sandy relief efforts. In accordance with OMB M-13-07, "Accountability for Funds Provided by
the Disaster Relief Appropriations Act," Federal agencies that support Hurricane Sandy relief
efforts must implement additional internal controls to prevent fraud, waste, and abuse of these
funds. OMB M-13-07 also requires agencies to manage Hurricane Sandy relief funds in the same
manner as programs designated as high risk for improper payments. As a result of these
requirements, DOl will complete risk assessments on the FY 2013 high-risk programs and
activities in FY 2014.

        We also found that in FY 2013, DOl reestablished its recapture audit program with a pilot
program in the Bureau of Land Management, the Bureau of Indian Affairs, the Bureau of
Reclamation, and the U.S. Geological Survey. DOl expects completion of the audits in FY 2014
and will assess the cost effectiveness of expanding the recapture audit services to other bureaus
after completing the pilot program.

        We verified that DOl did not have to conduct any risk assessments in FY 2013, will
complete risk assessments on the FY 2013 Hurricane Sandy high-risk programs and activities in
FY 2014, and is currently conducting its payment recapture audit program. Therefore, we do not
offer any recommendations. If you have any questions, please contact me at 202-208-5745.




                                                                                                3
